BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 40 bound
copies and 1 unbound copy of the foregoing Brief in
Opposition in 20-1598, Project Veritas Action Fund v.
Rachael S. Rollins, in Her Official Capacity as District
Attorney for Suffolk County, Massachusetts, were sent
via Next Day Service to the U.S. Supreme Court, and
3 copies were sent via Next Day Service and e-mail to
the following parties listed below, this 15th day of
October, 2021:
Benjamin Barr
Barr & Klein PLLC
444 N. Michigan Avenue
Suite 1200
Chicago, IL 60611
(202) 595-4671
ben@barrklein.com
Counsel for Petitioner
Eric A. Haskell
Counsel of Record
Assistant Attorney General
One Ashburton Place
Boston, MA 02108
(617) 963-2855
eric.haskell@mass.gov
Counsel for Respondent

I

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served .

.

I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on October 15, 2021.

Dbnha J. Wolf
fl)
Becker Gallagher L gal Publi~
Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

& ~ / '6-; dOrtl

dptv{J. ~

Notary Public
[seal]

JOHN D. GALLAGHER
Notary Public, Slate of Ohio
My Commission Expires

Febniary 14, 2023

